the   -
alleged that Dr.
                      CLOSEOUT FOR M95030011
      On March 9, 1995, Dr.,- - -
                        .                                    -
                                            a program director for
                                 ~r0gram-h the Division of
                           of NSF1s Directorate for Engineering,
notified OIG of an allegation of misconduct in science.
program director had received a letter from Dr.-
                                  f f at the
                                                                The
                                                               (the
                                  . In his letter, the complainant
                                                               (the
                                   b m e b y the complaentl and
then incorporated some of the complainant's research results into
his own paper2 without proper attribution. The complainant also
noted similarities in "many sentences, words, [and] notationsu
between the subject's work and his own. The complainant further
alleged that the subject copied or adapted two figures from the
complainant's journal submission and incorporated them into his own
paper without attribution. The complainant requested that the
subject not be assigned to review the complainant's NSF proposal.
     The complainant and the subject are former collaborators who,
since ending their collaboration, have continued to work separately
on issues closely related to those they studied in collaboration.
When OIG wrote to the subject, the subject explained that he had
independently derived the results reported in his paper, that his
results were noticeably different from the complainant's, and that
he had essentially completed his paper before he reviewed the
complainant's journal submission. OIG consulted two NSF program
officers knowledgeable about this field of research. Citing the
preexisting   similarities between      the   subject's   and   the
complainant's research, they concluded that it would not be

      co he complainant's paper was entitled


       he subject's paper, written in collaboration with -I


0-IG determined tTat the subject' s paper acknowledged support from
NSF.
                            page 1 of 2                     M95-11
                      CLOSEOUT FOR M95030011
possible to establish that the subject's research results derived
from the complainant's manuscript and not from the subject s
independent work.     OIG likewise concluded that, under the
circumstances, similarities in wording and notations were not
sufficiently remarkable to provide evidence of intellectual theft.
     With regard to the alleged similarities between the figures in
the two papers, OIG determined that these were too striking to be
coincidental and that the subject should have cited the
complainantrs paper as a source for the figures. Although OIG
concluded that omitting a citation in this instance was
inappropriate, OIG determined that the omission, by itself, was not
serious enough to be considered misconduct in science.           We
informed the subject that we were prepared to close this case
without a finding of misconduct provided that he sent an acceptable
letter to the editor of the journal that published his article
noting that certain figures in his article were copied or adapted
from the complainant's article. The subject has now done so.
Because the subject elected to acknowledge his debt to the
complainantrswork, OIG did not need to address the hypothetical
issue of whether persistent refusal to acknowledge this debt could
be considered misconduct in science.
     This inquiry is closed and no further action will be taken on
this case.




                           page 2 of 2
